Smithsonian Institution

Office of the Inspector General
March 29, 2010

Audit and Review Committee, Board of Regents
Smithsonian Institution
Washington, DC 20560

Dear Members of the Audit and Review Committee:

The Office of the Inspector General (OIG) serves as the Smithsonian's Contracting
Officer's Technical Representative for the oversight of the Smithsonian's annual
financial statement audits conducted by the independent certified public accounting
firm, KPMG LLP. This letter presents our observations on the FY 2009 audit process
for the Smithsonian's Federal Closing Package (federal appropriations reporting), the
Smithsonian's Financial Statement Audit (combined federal and trust reporting), and
the Smithsonian Enterprises special-purpose Statement of Net Gain. This letter also
contains suggestions for improving the process for the FY 2010 audit cycle and
beyond. We also summarize KPMG's FY 2008 audit of the Smithsonian's federal
awards, which it performed in accordance with U.S. Office of Management and
Budget Circular A-133.

Our review, as differentiated from KPMG's audits, which it conducted in accordance
with the American Institute of Certified Public Accountants' (AICPA) generally
accepted auditing standards (GAAS) and GAO's Government Auditing Standards, was
not intended to enable us to express, and we do not express, an opinion on the
Smithsonian's financial statements, internal controls, or compliance with laws and
regulations. KPMG is responsible for the auditors' reports and the conclusions
therein.

We found no instances where KPMG did not comply, in all material respects, with
GAAS and Government Auditing Standards. We also found that the Smithsonian
continued to improve the quality and timeliness of the audit.

In this letter, we begin with an overview of the results of the KPMG 's FY 2009 audits
and then turn to our own observations, including the status of prior years'
observations from our previous Oversight Letters.

In summary, we conclude that the Institution continues to make progress in
improving controls, financial reporting, and the audit process; the Office of the Chief
Financial Officer (OCFO) continues to take corrective actions to address outstanding
recommendations from KPMG and from our office; and the OCFO continues the
progress it has made in implementing its plan for strengthening internal controls,
especially in the high- and medium-risk processes. At the same time, we urge the
Smithsonian to further improve financial management by performing more interim
testing; developing a plan for quarterly reporting; and by completing, as soon as
practicable, the man uals necessary to implement internal control policies.

We set forth our scope and methodology in Attachment A.


MRC 524 

PO Box 37012 

Washington DC 2001 3-701 2 

202.633.7050 Telephone 

202.633.7079 Fax 

Federal Closing Package ofthe Smithsonian's Special-Purpose Financial Statements

In its independent auditors' report dated November 13,2009, KPMG issued an
unqua ~ ified opinion (the highest level of audit assurance) on the FY 2009 Federal
special-purpose financial statements. KPMG reported no matters involving internal
control that it considered to be material weaknesses. KPMG also reported that OC
had reso lved the significant deficiency that it first identified in its FY 2007 audit
regarding OC's accounting resources and staff capacity.

Smithsonian Institution Financial Statements

On January 29, 2010, KPMG issued an unqualified opinion on the Smithsonian's
financial statements for FY 2009 and found no matters involving internal control that
it considered to be material weaknesses. KPMG did, however, identify three matters
in this year's audit related to Contributions Accounting, Restricted Net Assets, and
Sponsored Projects accounting. A detailed description of these matters can be found
in KPMG's FY 2009 letter relating to internal controls.

Smithsonian Enterprises

For the second year, the OIG requested that KPMG perform a special-purpose audit
of Smithsonian's Enterprises (SE) «net gain" used in the calculation of annual SE
incentive awards and for other Institution uses.' With regard to the internal con troIs
and compliance testing associated with the audit, KPMG reported one deficiency
related to inventory valuation.

Smithsonian's OMB A-133 Audit ofFederal Awards
The Smithsonian's OMB Circular A-133 audit process is a coordinated effort between
KPMG and the Defense Contract Audit Agency (DCAA). Generally, KPMG audits
the direct costs of the Smithsonian's Washington, D.C.-based activities, while DCAA
audits the direct costs of the Smithsonian's Astrophysical Observatory in Cambridge,
MA, as well as the indirect costs of the Smithsonian as a whole.                  .

OMB Circular A-133 audit reports are not published until approximately 9 months
after the Smithsonian's fiscal year end. As a result, current year (FY 2009) results are
unavailable. However, in FY 2008, KPMG gave the Smithsonian an unqualified
opinion on its Supplementary Schedules of Expenditures of Federal Awards. In
addition, KPMG gave the Smithsonian an unqualified opinion on its compliance
with the requirements ofOMB Circular A-133. KPMG reported one finding (with
questioned costs for $597,535) related to the Institution 's Department of Commerce
- Exhibition on Oceans program, which the Smithsonian has resolved.




I The audit of SE's net gain resulted from a recommendation in our audit of executive compensation

at Smithsonian Business Ventures, number 1\-06-02 (Jan. 19 , 2007), to ensure that SE's financial
results are complete, accurate, and reliable for calculating incentive awards - a significant component
of executive compensation - and other Institution uses.

                                             Page 2 of 11
Current Year OIG Observations on Internal Control and Financial Reporting

Contribution Accounting

In KPMG's FY 2008 report on internal controls, KPMG reported accounting for
Contributions and Restricted Net Assets as significant deficiencies in the
Smithsonian's financial reporting. In FY 2009, KPMG observed other matters (see
Smithsonian Institution Financial Statements above) in both Contribution Accounting
and accounting for Restricted Net Assets. OC is curren tly working to resolve all
deficiencies and other observations related to the two accounts.

Contribution Accounting is an Institution-wide effort. Every Smithsonian unit that
solicits and receives gifts, donations, pledges, or other forms of contributions, has a
hand in ensuring compliance with accounting and reporting and in providing
complete and accurate information to the Office of Development (00) and
subsequently to Oc. The decentralized nature of the accounting is one complicating
factor; others include the lack of an automated interface between 00 and OC and the
lack of communication and understanding with respect to the initial provisions and
restrictions in the contributions, and the correct accounting treatment. Further,
subsequent changes sometimes occur in the execution of a contribution , which
require timely communication between 00 and Oc. Finally, newer forms of
fundraising will put greater pressure on the Contribution Accounting processes and
systems, requiring even better communication and cooperation among all the parties
involved .

In January 2009, in response to recommendation 23 of the June 2007 Report of the
Regents' Governance Committee, the OCFO presented to the Audit and Review
Committee its A Plan for the Strengthening Internal Controls (the Plan), which
identifies "Charitable Contributions" as a high-risk area. As noted, Contribution
Accounting is complicated and decentralized and as of now, 00 is not in a position
to address the issues related to its high-risk status, although it is taking temporary
measures to improve controls while awaiting a new system scheduled to be
implemented in 2013.

Staff Resources and Capabilities

In its FY 2009 report on internal controls, KPMG reported that OC had resolved the
significant deficiency that it first identified in its FY 2007 audit regarding OC's
accounting resources and staff capacity. This is a significant achievement for OC and
for the Institution as a whole.

Starting in FY 2008, Smithsonian management began to address serious problems in
its accounting and financial reporting, especially those identified as significant
deficiencies by KPMG in FYs 2006 through 2008. In FY 2008 , the Smithsonian
created ten new accounting positions, eight of which were funded in FY 2008 and
two in FY 2009. OC filled six of the eight positions in FY 2008 . In FY 2009, OC filled
one position and has plans to hire two additional staff in FY 20 10, in addition to the
one recently brought on board. The Smithsonian felt the benefits of these new hires
immediately; the number of significant deficiencies in the Institution's accounting


                                      Page 3 of 11
and reporting processes dropped to zero in FY 2009 from 11 in FY 2006 (see Table 1
on next page), 7 in FY 2007, and 3 in FY 2008. The additional hires for FY 2010
should help sustain the Institution's progress.

On a less positive note, in early FY 2010, the Deputy Comptroller resigned her
position for another outside the Institution. Given the Deputy Comptroller's critical
role as both a technical expert and the primary facilitator of all the parties involved in
the audit, a timely and well-qualified hiring will be crucial. OC must act quickly to fill
the role to ensure the gains made in coordinating the audit and improving
understanding and communication among the many SI units and offices' will
stabilize and continue.

Continuing Improvements in the Smithsonian's Financial Reporting and Audit
Process

In our observations on last year's FY 2008 financial statement audits, we reported
significant improvement in the Smithsonian's financial reporting and audit process
as evidenced by (1) the status of selected financial reporting indicators and (2)
improvements in qualitative factors such as planning, information, communication,
and coordination.

1. 	 Continuing Improvement il1 Selected Accounting and Financial Reporting Indicators

The following tables set forth some important indicators of the effectiveness of the
Smithsonian's accounting and financial reporting process. These indicators include:

• 	 Table I - number of material weaknesses, significant deficiencies, and other
    observations;
• 	 Table 2 - the number of open and resolved recommendations; and
• 	 Table 3 - the number of recorded audit adjustments and uncorrected differences.

               Table 1- Smithsonian Institution Financial Statement Audit

        Material Weaknesses, Significant Deficiencies, and Other Observations
          in the Smithsonian's Accounting and Financial Reporting Process
                          Other             Significant          Material
           Year        Observations         Deficiencies       Weaknesses
                        (Low Risk)        (Moderate Risk)      (High Risk)
         FY 2006           None                  lr               None

          FY 2007                 2                        7                    None

          FY 2008                 2                        3                    None

          FY 2009                 3                     None                    None



1The 11 findings in FY 2006 consist of two reportable conditions and 9 other deficiencies. Due to a
change in terminology adopted in FY 2007 the auditors now report reportable conditions, as well as
other deficiencies, as significant deficiencies.

                                            Page 4 of 11
In the last four years, and for years past, KPMG has not reported any material
weaknesses in the Smithsonian's financial reporting process, indicating that the
Smithsonian's process is fundamentally sound, that financial information is basically
reliable, and that the likelihood of a material error in its financial reports is unlikely.

As seen above, each year since FY 2006, OC has improved its accounting and
reporting processes such that in FY 2009 KPMG reported no significant deficiencies.
Of the 21 significant deficiencies in the three years prior to FY 2009, KPMG made 50
recommendations, primarily to improve internal controls over accounting and
financial reporting. The Smithsonian has resolved 47, or 94 percent, of these
recommendations.

Any unresolved deficiency demands attention because it can adversely affect the
Smithsonian's ability to initiate, authorize, record, process, and report financial data
consistent with the generally accepted accounting principles governing the
Smithsonian's accounting and reporting.

Other observations are matters whose effect on the financial statements is
inconsequential but are nevertheless worthy of attention because they point to areas
where the Institution can improve its financial management.

              Table 2 - Smithsonian Institution Financial Statement Audit
                         Open and Resolved Recommendations
        Yea r           2006     I
                                      2007          2008      I 2009 I                        Total    I
   Recommendations       23            19             8       I    7      I                       57   I
   Resolved                     23               19              5             -0­                47
                                                                          I             I
  I Open                I       0                0               3               7                10

In FY 2009, KPMG identified three accounting issues resulting in seven
recommendations for improvements in the Institution's financial reporting, a 13%
drop from last year, when KPMG made 8 recommendations. OC's commitment to
resolving these recommendations will advance the quality of the Institution's
financial reporting.

As in our letter last year, we would like to draw your attention to OIG
recommendations. These recommendations include many related to financial
processes such as account reconciliations and classifications, compliance with the
Institution's financial policies, regulations related to federal programs, and laws
related to appropriations accounting. We are pleased to note that of the 15
outstanding OIG recommendations in these areas at the beginning of FY 2009, we
closed 13 based on actions taken by the OCFO. We believe these actions, including
the ones related to the remaining open recommendations, will further improve the
Institution's accounting and reporting controls:'

, Current year recommendations are not typically resolved in the year of the audit. 

'The two remaining open recommendations relate to 1) the Administration of the Workers' 

Compensation Program in the Office of Human Resources and 2) certain accounting issues in the 


                                           Page 5 of 11
                 Table 3 - Smithsonian Institution Financial Statement Audit
                Recorded Audit Adjustments and Uncorrected Audit Differences

I        YEAR
                       I     FY 2006              FY 2007         FY2008
                                                                           I   FY 2009
                                                                                             I
      Number of
    Recorded Audit               9                    15            3           None
     Adjustments

     Number of
     Uncorrected
                                 24                   31            13            12
       Audit
     Differences

    As noted above, in FY 2009 KPMG did not propose that the Smithsonian record any
    audit differences, reflect,i ng a significant improvement and stabilization in the
    Smithsonian 's accounting and reporting process and in the completeness and
    accuracy of the Smithsonian's financial data.

    Uncorrected audit differences (i.e., the differences between the Smithsonian's figures
    and KPMG's audit results that the Smithsonian chose not to record) dropped from
    13 in FY 2008 to 12 in FY 2009, an 8% decrease (in FY 2006 and FY 2007, a different
    threshold was used, making a comparison difficult). Similar to the recorded
    adjustments above, the decrease in the number of uncorrected differences reflects
    improvement in the completeness and accuracy of the Smithsonian's financial data.

    Both measures above indicate an increasing reliability in the Institution's accounting
    and financial reporting, one of the key goals in improving the Smithsonian's overall
    con trol structure.

    We will continue to track the above indicators to measure the degree of progress in
    the effectiveness of the audit and in the quality of financial reporting.

    2. 	 Continuing Improvement in Qualitative Factors

    Certain qualitative improvements took place in areas such as planning, information,
    communication, and coordination, as follows.

        • 	 Smithsonian operating units continued to show greater understanding,
            cooperation, and accountability for the audit process;
        • 	 The operating units, in most cases, and OC continued to improve the
            timeliness and reliability of the data they provided to KPMG, which among
            other things, resulted in fewer audit adjustments and uncorrected differences,
            as noted in Table 3 above; and
        • 	 OC and KPMG continued to work successfully to shift more audit work to an
            interim period to increase efficiency and improve data reliability.




    Office of Facilities Engineering and Maintenance. 


                                                 Page 6 of 11 

On a less positive note, there were also signs that the gains in efficiency made by OC
in the previous two audits might slip due to certain units having difficulty providing
OC with timely and reliable information. In particular, the Office_of Sponsored
Projects (OSP) and the Office of Treasurer (OT) had difficulties providing the
necessary financial information. These problems led to concerns that the audit report
would be delayed. While all parties involved resolved the immediate problems, the
underlying issues remain and need to be addressed, especially in OSP and ~T.
Resolving the potential for delays will be especially critical given the Deputy
Comptroller's departure.

Status ofPrior Years' OIG Observations on Internal Control and Financial Reporting

In our FY 2007 oversight report, we pointed to three areas that needed strengthening.
Below we provide an update on each area.

1. 	 Improve Information and Communication between the External Auditor and the
     Comptroller'S Office

Overall, our concern about information and communication problems has
diminished substantially. As noted earlier, KPMG and OC have a highly functioning
relationship. OC and KPMG started their planning work earlier than ever. OC made
every effort to produce timely and reliable documentation requested by KPMG. OC
worked continuously with the operating units to obtain audit information. The
recent departure of the Deputy Comptroller, however, creates some risk of a
breakdown in communication and the timeliness and reliability of data, risks to
which the OC will need to be attentive.

OC meetings with KPMG and operating units and support offices, such as OGO,
continued to be productive. The Office ofInvestments continued to produce timely
and reliable information in a highly professional manner. Nearly all operating units
provided KPMG with better quality and more timely information, with the notable
exception of OSP and OT as discussed above.

2. 	 Perform More Interim Testing

Last year, the Institution began placing more emphasis on substantive interim testing
of account balances and transactions for the eight month period ending May 31. In
so doing, the Institution reduced the amount of year-end testing and also reduced the
time needed to resolve audit differences and other issues at year end . Further, moving
some of the audit work to an earlier part of the year would red uce the impact of
absences during the holiday season, a critical period of the audit. Efficiencies in
interim testing still have the potential for significantly improving the timeliness of the
audit.

OC continues to work with KPMG to develop and implement a plan that identifies
the timing and tasks to accommodate more detailed testing of interim account
balances. This year, in addition to fixed assets and federa l accounts, OC provided
KPMG with interim balances and documentation for contributions. Performing
interim audit tests on contributions is an important part of the audit given the
numerous deficiencies that KPMG has reported over the last few years and because


                                       Page 7 of 11
the interim work, in general, identifies errors, omissions, or unusual transactions that
can be resolved prior to the year-end effort. Next year, for the same reasons, OC is
planning to obtain interim information for Smithsonian grants and contracts.

We recommend that OC and KPMG continue to expand the use of interim testing to
achieve the optimum level of efficiency in the audit.

3. 	 Develop a Plan for Closing Accounts and Producin~ Financial Statements
     Quarterly

Although we understand that quarterly reporting is a long-term goal, we believe that
the Smithsonian should strive to achieve that goal as soon as possible, as
improvements in the current process reach a steady state. Quarterly reporting is
standard practice in many organizations because it produces additional analytical
data for senior management; increases the reliability of financial data; helps to make
financial management more of an Institution-wide priority; and achieves greater
discipline in the Institution's financial reporting process through identifying errors,
omissions, unusual transactions, changes in accounting procedures, and breakdowns
in controls.

We acknowledge that the cost of producing Institution-wide quarterly statements in
accordance with professional accounting standards is cost-prohibitive. However, we
believe that the Smithsonian can produce meaningful statements on a modified basis
that would yield some of the benefits mentioned in the above paragraph. We
recommend that the OCFO develop a plan for modified quarterly reporting that
presents an approach for producing credible and useful quarterly financial
sta tements.

4. 	 The Institution's Comprehensive Plan for Internal Controls

In our FY 2008 report, we recommended that Smithsonian management develop a
comprehensive written plan that (i) collects the various recommendations and
initiatives relating to financial controls into one strategic document; (ii) prioritizes
the various tasks; (iii) maps out required resources to complete each task; (iv) assigns
responsibility for accomplishing each task; and (v) stipulates interim and final
delivery dates. We also recommended that senior level officials closely monitor the
Institution's progress in accomplishing the plan's objectives and provide regular
progress reports to the Board of Regents.

The OCFO's Plan that was presented to the Audit and Review Committee last year
addresses many of the elements noted in the paragraph above. As the Plan states,
"For the first time, the Institution has a comprehensive view of its internal control
deficiencies, the actions required to address the problem areas, and a preliminary
estimate of the remediation cost."

As of September 30, 2009, the OCFO made progress in addressing the 23 processes
fundamental to the Institution, with an emphasis on the five high-risk areas:

• 	 Personal Property Management
• 	 Procurement, Contracting and Leasing, and Purchase Card Use


                                      Page 8 of 11
• 	 Capital Projects
• 	 Charitable Contributions
• 	 Use of Funds Restrictions

Among other things, OCFO has revised or has been involved in the revision of
several Institution directives. These directives establish Institution-wide policies and
procedures. In the last two years, the Smithsonian issued the following directives
related to these high-risk areas:

•	  SD 314 - Contracting (issued 0611212008)
•	  SD 315 - Personal Property Management (issued 07/30/2008)
•	  SD 324 - Smithsonian Enterprises Retail Revenue Sharing (issued 01/26/2009)
•	  SD 305 - Administrative Control of Funds (issued 07/27/2009)
•	  SD 312 - Travel (issued 08104/2009)
•	  SD 301 - Financial Management Accounting Policies and Procedures (issued
    1211012009)
• 	 SD 302 - Financial Management Payment Policies, Systems, and Procedures
    (issued 12/10/2009)
• 	 SD 323 - Smithsonian Institution Spending Policy for Federal Appropriations
    and Trust Funds (issued 01125/2010 )

In some cases, the directives are accompanied by handbooks or manuals which
provide detailed implementation guidance. For SD 314, Contracting, five of the
seven man uals have not been issued. We urge the Institution to complete its work in
this high-risk area. Further, the Smithsonian has not issued implementation guidance
for SD 323, which sets forth spending policies for federal appropriations and trust
funds, although it hopes to do so by mid-2010. We urge the Smithsonian to keep to
this date because the topic of this guidance is an area that came to our attention
during our recent audit of facilities management, where we found that the
Smithsonian did not always ensure the proper use of and accounting for federal
facilities maintenance funds. Finally, in addition to the above directives, we
understand that SD lIS, Management Controls, which was last issued in 1996, is
under revision. Because it forms the basis for the Institution's overall control
structure, we look forward to its prompt publication.

Apart from issuing directives, OCFO regularly sends Institution-wide e-mails on
various policy updates and reminders for risk areas such as purchase cards, travel
cards, and personal property accountability.

We are encouraged by the progress made on the Plan during the past year. We
believe the design of the above policies and procedures and the related
implementation in various Smithsonian offices and units reflects progress in
establishing an effective control structure at the Institution.

As stated in our FY 2008 letter, our office will monitor the implementation and
operating effectiveness of this Plan, conducting audits as we deem appropriate. Areas
of audit may include status of the Plan implementation and stated milestones;



                                       Page 9 of 11
implementation costs; the competence of assigned staff; design of controls and
operating effectiveness; and direction and leadership.
                                      ,. ,. ,. ,. ,.

We sincerely appreciate the professionalism of KPMG's staff and the cooperation and
dedication of staff in the Office of the Chief Financial Officer.

Very truly yours,

ul~~~
A. sprlghtley i!~
Inspector General


cc 	   Chair, Board of Regents
       Under Secretary for Finance and Administration
       Chief Financial Officer
       Comptroller




                                    Page 10 of 11
Attachment A

Scope and Methodology

The scope of our oversight review included KPMG's FY 2009 audits of the
Institution's special-purpose federal financial statements, the Smithsonian-wide
financial statements, SE's special-purpose statement of net gain, as well as the OMB
A- 133 audit for FY 2008.

We reviewed (i) planning documents, including risk assessments, materiality
calculations, audit programs, internal control evaluations, and sampling plans; (ii)
test results of detailed transaction testing; (iii) other selected work papers; and (iv)
financial reporting procedures. In addition, we held discussions with KPMG auditors
and managers, representatives from the Office of the Chief Financial Officer and
support offices, and officials from Smithsonian Enterprises. For the OMB A-133
audit, we reviewed the workpapers and report and discussed the audit results with
KPMG.

We performed our oversight review from July 2009 to March 2010 and designed our
procedures to comply in all material respects with the audit program and guidance
developed by the Council of Inspectors General on Integrity and Efficiency for OIG
oversight of independent public accountants.

We provided KPMG and the CFO with a draft of this report. Based on their
comments, we made changes to the report to the extent we deemed appropriate.




                                      Page 11 of 11
